it*

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
(

IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
VENECIA DEPAULA,
Appellant,
v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)

Case No. 2D19-1216

Opinion filed September 16, 2020.
Appeal from the Circuit Court for
Hillsborough County; Mark D. Kiser, Judge.
Venecia Depaula, pro se.
Ashley Moody, Attorney General,
Tallahassee, and Helene S. Parnes,
Assistant Attorney General, Tampa, for
Appellee.
PER CURIAM.

Affirmed.

CASANUEVA, SILBERMAN, and LUCAS, JJ., Concur.

"A"

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

October 28, 2020
CASE NO.: 2D19-1216
L.T. No.: 09-CF-13368
VENECIA DEPAULA
Appellant / Petitioner(s)

v.

STATE OF FLORIDA
Appellee / Respondent(s).

a

BY ORDER OF THE COURT:
Appellant's motion for rehearing and request for issuance of a written opinion is
denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
ATTORNEY GENERAL, TAMPA
VENECIA DEPAULA

HELENE S. PARNES, A.A.G.
PAT FRANK, CLERK

mep

Mary Elizabeth Kuenzel
Clerk

sw'6"

?
NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT

VENECIA AMALIA DEPAULA,
Appellant,

v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)
)

Case No. 2D11-1311

Opinion filed December 5, 2012.
Appeal from the Circuit Court for
Hillsborough County; Emmett Lamar
Battles, Judge.
James Marion Moorman, Public Defender,
and C. Suzanne Bechard, Assistant Public
Defender, Bartow, for Appellant.

Received By

Pamela Jo Bondi, Attorney General,
Tallahassee, and Heidi L. Bettendorf,
Assistant Attorney General, Tampa, for
Appellee.

Appellate

PER CURIAM.
Affirmed.

SILBERMAN, C.J., and KELLY and VILLANTI, JJ., Concur.

dec
Public d

05 rOB

°*ision
efenders Office

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

January 10, 2013
CASE NO.: 2D11-1311
L.T. No. : 09-CF-13368
Venecia Depaula

v.

State Of Florida

Appellant / Petitioner(s),

Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's motion for rehearing and issuance of a written opinion is denied.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
Venecia Depaula
Pat Frank, Clerk

Heidi L. Bettendorf
Karen Kinney, A.P.D.

Robert Krauss, A.A.G.

me

James Birkhold
Clerk

Received By
Public 0eft^dDeToffice

't..*

V.

IN THE THIRTEENTH JUDICIAL CIRCUIT COURT
FOR HILLSBOROUGH COUNTY, FLORIDA
Criminal Justice and Trial Division
STATE OF FLORIDA

CASE NO.:

09-CF-013368

DIVISION:

E

v.
VENECIA AMALIA DEPAULA,
Defendant.

ORDER DISMISSING WITHOUT PREJUDICE GROUNDS ONE. TWO. THREE
FOUR, AND FIVE, AND DENYING GROUND SIX OF DEFENDANT’S MOTION FOR
POSTCONVICTION RELIEF
THIS MATTER is before the Court on Defendant’s pro se “Motion for Postconviction
Relief’ (Motion), filed February 3, 2015, pursuant to Florida Rule of Criminal Procedure 3.850.
After reviewing Defendant’s Motion, the court file, and the record, the Court finds as follows:
Procedural History
On February 24, 2011, Defendant was found guilty by a jury of first degree premeditated
murder, as charged, with a special finding that Defendant did actually possess and discharge a
firearm causing death. See Verdict Form, attached. That same day, Defendant was sentenced to a
term of natural life in prison, with a twenty-five (25) year mandatory minimum sentence. .See
Judgment and Sentence, attached. Defendant appealed her conviction and sentence, and the
mandate, affirming, issued January 30, 2013. See Mandate, attached.
Defendant’s Motion for Postconviction Relief
In her timely,1 sworn Motion, Defendant raises the following grounds for relief:
1. Ineffective assistance of counsel for allowing Defendant to reject a plea offer

while knowing she was mentally incompetent to proceed.

tJh^Court "otes that Defendant’s Motion was provided to prison officials on January 28, 2015, given the stamp
on
e otion. As such, Defendant’s Motion is timely filed within the requirements of Rule 3.850(b).
1 of 14

y •

2. Ineffective assistance of counsel for failing to request a hearing for the trial
judge to make findings and issue an order pertaining to Defendant’s mental
state and specifying whether Defendant was competent to proceed.
3. Ineffective assistance of counsel for failing to object on the grounds that
Defendant was never declared competent to proceed before or during jury trial
given that her competency to proceed was in question.
4. ineffective assistance of counsel for allowing Defendant to waive her
constitutional rights during trial, without objection, despite knowing she could
not make a valid waiver given her incompetency to proceed.
5. Ineffective assistance of counsel for disclosing privileged common,cations to
the State and trial court absent a valid waiver from Defendant.
6. Ineffective
assistance of .counsel for conceding that Defendant created or
.
wrote the text messages originating from a phone registered to her.
Defendant requests the Court grant an evidentiary hearing

as to the conduct of her trial

counsel and grant her a competency hearing and evaluation. Defendant also requests that her
judgment and sentence be vacated and that she either be granted the
thirty-five (35) year plea offer previously offered

opportunity to accept the

to her or given a new trial, once declared

competent to proceed. See Motion, attached.
Discussion
In each of her grounds, Defendant alleges ineffective

assistance of counsel. When

ineffective assistance of counsel is alleged, the burden is on the person seekmg collateral relief to
1) allege the grounds for relief specifically; and 2) establish whether prejudice resulted. Effective
assistance of counsel does not mean that a defendant must be afforded errorless counsel
future developments in law must be anticipated. Meeks

or that

v. State, 382 So. 2d 673 (Fla. 1980). In

Strickland v. Washington, the United States Sup reme
Court provided the following standard for
ineffective assistance of counsel:
The benchmark for judging any claim of ineffectiveness must be
whether counsel’s conduct so undermined the proper functioning of
the adversarial process that the trial cannot be relied on as having
2 of 14
/\

produced a just result. ... A convicted defendant’s claim that
counsel s assistance was so defective as to require reversal of a
conviction ... has two components. First, the defendant must show
that counsel’s performance was deficient. This requires showing that
counsel made errors so serious that counsel was not functioning as the
“counsel” guaranteed the defendant by the Sixth Amendment.
Second, the defendant must show that the deficient performance
prejudiced the defense. This requires showing that counsel’s errors
were so serious as to deprive the defendant of a fair trial, a trial whose
result is reliable. . . . [T]he proper standard for attorney performance
is of reasonably effective assistance.
466 U.S. 668, 686-687 (1984). In Downs v. State, the Florida Supreme Court stated that a
defendant must prove prejudice affirmatively. See Downs v. State, 453 So. 2d 1102 (Fla. 1984).
To adequately demonstrate prejudice, a defendant must show “that there is a reasonable
probability that but for counsel s unprofessional errors, the result of the proceeding would have
been different. A reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Strickland, 466 U.S. at 694.
Even if a defendant’s allegations are sufficient to state a claim for relief, a motion may be
summarily denied, without an evidentiary hearing, if the record conclusively refutes the
allegations and demonstrates that the defendant is not entitled to relief. See Anderson v. State,
627 So. 2d 1170, 1171 (Fla. 1993). An evidentiary hearing will be required unless the motion is
facially insufficient or the record demonstrates that the defendant is not entitled to relief. Id.
Ground One
In Ground One, Defendant alleges ineffective assistance of counsel for allowing
Defendant to reject a plea offer while knowing she was mentally incompetent to proceed.
Specifically, Defendant states that on March 10, 2010, her trial counsel filed a motion asking the
trial court to appoint Dr. Michael Gamache to determine whether Defendant was competent to
proceed. Defendant states that on March 13, 2010, the trial court granted the motion, but

3 of 14

, >

appointed Dr. George M. Northrup to conduct the exam, and file the resulting report by April 19,
2010.
Defendant states that on July 30, 2010, trial counsel filed a second motion to appoint Dr.
Gamache for a confidential ex parte mental competency exam. Defendant alleges that trial
counsel asserted that Defendant had been previously diagnosed with severe mental disorders and
based on his meetings with Defendant and reports received from Dr. Patricia Phelps, he believed
that Defendant was incompetent to proceed. Defendant states that on the same day, trial counsel
also filed a “Notice to Rely on the Defense of Battered-Spouse Syndrome and/or Rely
on
Insanity at Time of the Offense.” On August 10, 2010, trial counsel filed an amended motion
asking the trial court to appoint Dr. Gamache as a confidential expert for a forensic
psychological examination. Defendant states that, in that motion, trial counsel asked for an
examination to determine whether Defendant was competent to proceed. Defendant states that
the trial court granted the motions and later granted a motion for continuance to give Dr.
Gamache time to complete his evaluation.
Defendant states that on November 30, 2010, the State filed a motion to strike the
“Notice of Intent to Rely on the Defense of Insanity as the Time of the Offense.” Defendant
states that at that point, the case was set for jury trial. She states that trial counsel then filed a
motion for continuance explaining the need to have Defendant evaluated by an OB/GYN expert.
Defendant states that trial counsel filed another motion requesting the trial court to appoint Dr.
Eldra Solomon to conduct a mental health evaluation.
Defendant states that on December 2, 2010, the State filed a motion to strike and a
motion in limine regarding the “Notice of Intent to Rely on the Defense of Battered Spouse
Syndrome.” Defendant states that on December 3, 2010, the parties appeared before the trial
court to resolve the pending motions. Defendant alleges that during the hearing, trial counsel
4 of 14

' >.

explained that Defendant had been evaluated by two experts regarding her competency and that
neither expert considered the question of her sanity, but they both agreed she suffers from serious
mental illness. Defendant states that trial counsel further explained that he then sought to have
Defendant examined to determine whether she was insane at the time of the offense. Defendant
states that unfortunately, Dr. Gamache could not find convincing evidence to support the second
prong of the M’Naghten test, but that Dr. Gamache agreed Defendant suffers from serious
mental illness. Defendant further states that trial counsel explained that he then sought
examination by Dr. Solomon to develop some mitigating circumstances to present at sentencing.
Defendant states that the trial court ordered the appointment but the exam did not occur.
Defendant argues that throughout all of the proceedings, the trial court never made any
findings regarding her competency to proceed and no order was ever filed with such a finding.
Defendant alleges that the doctors found Defendant to be seriously mentally ill but their findings
were not addressed. Defendant argues that the State, at the December 3, 2010 hearing, also
expressed concern that Defendant was not competent to proceed. Defendant argues that the State
explained that he listened to recorded jail phone calls where Defendant stated she was not going
to take the first plea offer because she had been told that the State would reduce the offer as the
trial date neared, and as such, she would hold out. Defendant explains that the State expressed
that it had not offered Defendant any deal and was not sure that one would be forthcoming.
Defendant argues that, even with these issues, the trial court never addressed Defendant’s
mental illness and never decided whether she was competent to proceed. Defendant contends that
because no determination has been made as to her competency, she has not been competent to
proceed since the issue of her mental health was first raised. Defendant states that she was not
competent to proceed to trial and was not competent to knowingly, intelligently, and voluntarily
reject the State’s plea offer of thirty-five (35) years in prison. Defendant further states that she
5 of 14

was not competent to knowingly, intelligently, and voluntarily waive her right to testify, and
could not knowingly and intelligently waive decisions impacting her rights to due process and a
fair trial.
Defendant argues that trial counsel knew that she was never declared competent to
proceed and knew she was unable to make a rational, fully informed, knowing and voluntary
decision to reject the State’s plea offer. She argues that trial counsel should have taken every
measure possible to encourage her to take the offer, or postpone the proceedings until she
was
declared competent to proceed. Defendant further argues that trial counsel should have

moved

the trial court for a hearing to rule on the question of her competency to proceed and address

any

matters pertaining to the restoration of her competency and mental health.2 See Motion, attached.
When a defendant alleges that his or her trial counsel failed to correctly advise him or her
with regard to accepting or rejecting a plea offer, the defendant must show deficient performance
and prejudice under Strickland. To prove prejudice under such a claim, the defendant must show:
(1) he or she would have accepted the offer had counsel advised the defendant correctly, (2) the
prosecutor would not have withdrawn the offer, (3) the court would have accepted the offer, and
(4) the conviction or sentence, or both, under the offer’s terms would have been less severe than
under the judgment and sentence that in fact were imposed.” See Alcorn v. State, 121 So. 3d 419
(Fla. 2013).
Further, when a defendant alleges that ineffective assistance of counsel based on trial
counsel’s conduct in handling the defendant’s competency to proceed, the defendant must allege
specific tacts showing that a “reasonably competent attorney would have questioned competence
to proceed,” in order to sufficiently allege the deficiency prong of Strickland. See Thomp
son v.
" Tohe,C°L\rt!10teSJ th3t D?fendant has used the same facts from Pages 7 to 14 other Motion to support her Grounds
1, 2 3, and 4, and as such, the Court has only recited those facts in Ground 1. However, as the Court separately
explains in each Ground, the facts provided do not support a finding that the Grounds are facially sufficient and as
such, the Court has not separated the facts into the Grounds to which they are relevant.

6 of 14

J

1

State, 88 So. 3d 312, 319 (Fla. 4th DCA 2012) (“Conclusory allegations of incompetency are not
enough to warrant an evidentiary hearing.”). In order to sufficiently allege the prejudice prong
with such a claim, the defendant must “set forth clear and convincing circumstances that create a
real, substantial and legitimate doubt as to the movant’s competency.” Id. at 319-320. Moreover,
there is a presumption, in postconviction proceedings, that the defendant was competent, and the
defendant has the burden to demonstrate otherwise. Id. at 320. The defendant must create a “real,
substantial and legitimate doubt as to competency” in order to be entitled to an evidentiary
hearing. Id.
After reviewing Defendant’s allegations, the court file, and the record, the Court finds
that Defendant has failed to sufficiently allege prejudice in trial counsel’s conduct with regard to
advice given in rejecting a plea offer where Defendant was never declared competent to proceed.
See Boyers v. State, 104 So. 3d 1230, 1232 (Fla. 2d DCA 2012). Accordingly, Ground One
must be dismissed without prejudice to any right Defendant may have to refile a facially
sufficient ground within sixty (60) days of the date of this Order. See Spera v. State, 971 So.
2d 754, 761 (Fla. 2007).
Ground Two
In Ground Two, Defendant alleges ineffective assistance of counsel for failing to request
a hearing for the trial judge to make findings and issue an order pertaining to Defendant’s mental
state and specifying whether Defendant was competent to proceed. See Motion, attached.
After reviewing Defendant’s allegations, the court file, and the record, the Court first
finds that Defendant has incorporated by reference the facts that the Court has listed in Ground
One. Although the Court will incorporate by reference those facts here, the Court finds that
Defendant has failed to sufficiently allege both deficiency and prejudice. As discussed above, a
defendant alleging ineffective assistance of counsel based on trial counsel’s conduct in handling
7 of 14

,/l..

L,

the defendant’s competency to proceed, the defendant must allege specific facts showing that a
“reasonably competent attorney would have questioned competence to proceed” and must “set
forth clear and convincing circumstances that create a real, substantial and legitimate doubt as to
the movant’s competency.” See Thompson, 88 So. 3d at 319-320. The Court finds that Defendant
has failed to set forth specific facts with regard to how trial counsel’s conduct was deficient and
Defendant has not set forth clear and convincing circumstances that create doubt as to her
competency to proceed at the time of trial. Moreover, Defendant has not alleged how the
outcome of the proceedings would have been different if not for trial counsel’s alleged deficient
performance. Accordingly, Ground Two must be dismissed without prejudice to any right
Defendant may have to refile a facially sufficient ground within sixty (60) days of the date
of this Order. See Spera, 971 So. 2d at 761.
Throughout her recitation of the facts, Defendant appears to be alleging that the trial
court erred by not addressing her mental illness and never formally deciding, or issuing an order
on, whether she was competent to proceed. However, allegations of trial court error are not
cognizable in a Rule 3.850 postconviction motion. See Watts v. State, 82 So. 3d 1215, 1216 n. 1
(Fla. 2d DCA 2012) (explaining that claims in a Rule 3.850 motion that the trial court erred by
failing to have the defendant examined by at least three mental health experts and failing to hold
a competency hearing consisted of claims of trial court error and thus were procedurally barred);
see also Franqui v. State, 59 So. 3d 82, 96 (Fla. 2011) (quoting Bruno v. State, 807 So. 2d 55, 63
(Fla. 2001) (explaining that “[a] claim of trial court error generally can be raised on direct appeal
but not in a rule 3.850 motion”)); Thompson, 88 So. 3d at 316 (“In Florida state courts, neither a
procedural nor a substantive competency claim of trial court error may be raised in a
postconviction motion.”). As such, to the extent Defendant is alleging trial court error, the Court
finds that such a claim is not cognizable in a Rule 3.850 motion and is procedurally barred.
8 of 14

/l

.i

11

/ b~

Ground Three
In Ground Three, Defendant alleges ineffective assistance of counsel for failing to object
on the grounds that Defendant was never declared competent to proceed before or during jury
trial given that her competency was in question. See Motion, attached.
After reviewing Defendant’s allegations, the court file, and the record, the Court first
finds that Defendant has incorporated by reference the facts that the Court has listed in Ground
One. Although the Court will incorporate by reference those facts from Ground One here, the
Court finds that Defendant has failed to sufficiently allege both deficiency and prejudice. As
discussed above, a defendant alleging ineffective assistance of counsel based on trial counsel’s
conduct in handling the defendant’s competency to proceed, the defendant must allege specific
facts showing that a “reasonably competent attorney would have questioned competence to
proceed” and must “set forth clear and convincing circumstances that create a real, substantial
and legitimate doubt as to the movant’s competency.” See Thompson, 88 So. 3d at 319-320.
Defendant has failed to set forth specific facts with regard to how trial counsel’s conduct was
deficient, and has not set forth clear and convincing circumstances that create doubt as to her
competency to proceed at the time of trial. Moreover, Defendant has not alleged how the
outcome of the proceedings would have been different if not for trial counsel’s alleged deficient
performance. Accordingly, Ground Three must be dismissed without prejudice to any right
Defendant may have to refile a facially sufficient ground within sixty (60) days of the date
of this Order. See Spera, 971 So. 2d at 761.
Ground Four
In Ground Four, Defendant alleges ineffective assistance of counsel for allowing
Defendant to waive her constitutional rights during trial, without objection, despite knowing she
could not make a valid waiver given her incompetency to proceed. See Motion, attached.
9 of 14
j ,. i

After reviewing Defendant’s allegations, the court file, and the record, the Court first
finds that Defendant has incorporated by reference the facts that the Court has listed in Ground
One. Although the Court will incorporate by reference those facts from Ground One here, the
Court finds that Defendant has failed to sufficiently allege both deficiency and prejudice. As
discussed above, a defendant alleging ineffective assistance of counsel based on trial counsel’s
conduct in handling the defendant’s competency to proceed, the defendant must allege specific
facts showing that a “reasonably competent attorney would have questioned competence to
proceed” and must “set forth clear and convincing circumstances that create a real, substantial
and legitimate doubt as to the movant’s competency.” See Thompson, 88 So. 3d at 319-320.
Defendant has not provided any specific facts with regard to her allegation that her trial counsel
was ineffective for allowing her to waive her constitutional rights during trial. Defendant has not
specifically alleged what constitutional rights were waived or how the outcome of the
proceedings would have been different if not for counsel’s alleged deficiency in allowing her to
waive her constitutional rights. Defendant only states that she was not competent to knowingly,
intelligently, and voluntarily waive her right to testify, and could not knowingly and intelligently
waive decisions impacting her rights to due process and a fair trial. Accordingly, Ground Four
must be dismissed without prejudice to any right Defendant may have to refile a facially
sufficient ground within sixty (60) days of the date of this Order. See Spera, 971 So. 2d at
761.
Ground Five
In Ground Five, Defendant alleges ineffective assistance of counsel for disclosing
privileged communications to the State and trial court, absent a valid waiver from Defendant.
Specifically, Defendant alleges that trial counsel requested a pre-trial mental health examination
by Dr. Gamache, and asked for an order authorizing the expenditure. Defendant alleges that trial
10 of 14
.Vi f;

counsel also requested a confidential ex parte mental health examination. Defendant states that
the trial court granted both motions and after Dr. Gamache delivered his written report to trial
counsel. Defendant states that on December 3, 2010, the trial court conducted a hearing on
unresolved motions and at the conclusion of the hearing, the judge asked trial counsel to provide
a copy of Dr. Gamache’s report to the trial court and to the State. Defendant alleges that trial
counsel agreed, stating that he did not believe the matters were confidential any longer.
Defendant states that the judge stated that the privilege had been waived. Defendant alleges that
the trial had not commenced, the defense had not called Dr. Gamache or any other expert to
testify, and Defendant was never asked about waiving the privilege. Defendant argues that the
matters in the report were thus still confidential, and trial counsel was ineffective for failing to
object to providing a copy of the report to the trial court and the State. Defendant alleges that
trial counsel s conduct was a betrayal of Defendant given that the neither the trial court nor trial
counsel questioned her about whether she wished to waive the privilege of confidentiality.
Defendant alleges that the report and all information contained in it should have been sealed. See
Motion, attached.
After reviewing Defendant’s allegations, the court file, and the record, the Court finds
that Defendant has failed to sufficiently allege prejudice — how the outcome of the proceedings
would have been different if not for trial counsel’s alleged deficient conduct. Accordingly,
Ground Five must be dismissed without prejudice to any right Defendant may have to
refile a facially sufficient ground within sixty (60) days of the date of this Order. See Spera,
971 So. 2d at 761.
Ground Six
In Ground Six, Defendant alleges ineffective assistance of counsel for conceding that.
Defendant created or wrote the text messages originating from a phone registered to her.
11 of 14

olw^rvliv/ (T

Specifically, Defendant states that during trial, the State sought to introduce text messages from
phone numbers registered to Defendant and the victim. Defendant alleges that the State’s goal
was to use the messages to prove motive. Defendant alleges that a witness from Metro PCS was
going to testify to whom the text messages were registered, but argues that there was no way to
prove the identity of who wrote the unsigned text message. Defendant alleges that the State could
not authenticate the text messages. Defendant argues that trial counsel solved the State’s problem
by conceding that Defendant wrote the text messages at issue. Defendant alleges that without the
concession, the incriminating evidence would have been inadmissible and without that evidence
the jury would have found her not guilty or guilty of a lesser included offense. Defendant
concludes that counsel was ineffective in this regard. See Motion, attached.
After reviewing Defendant’s allegations, the court file, and the record, the Court finds
that Defendant has alleged a facially sufficient ground. However, the Court finds that
Defendant’s allegation lacks merit. Contrary to Defendant’s allegations, trial counsel did object
to the introduction of the text messages into evidence based on a lack of foundation and made an
oral motion to the trial court on the issue. See Trial Transcript (T.T.), p. 587, attached. While trial
counsel did concede that the State had shown a relation between Defendant and the number that
she wrote on an application for a gun permit and that was the number reflected by Metro PCS,
trial counsel did argue that there was an issue with regard to whether Defendant authored the text
messages. Id. Trial counsel argued that no one could come in and testify that they recognized the
language, attitude or connotation to distinguish and specifically identify the author of the text

3 At the end of Defendant’s Motion she states that trial counsel and appellate counsel were ineffective for failing to
preserve these issues for appeal and raise them on direct appeal. See Motion, attached. To the extent Defendant
attempts to use this as prejudice for her grounds for relief, the Court finds that the failure to preserve an issue for
appeal or to raise an issue on direct appeal does not show the necessary prejudice under Strickland. See Strobridge v.
Slate, 1 So. 3d 1240, 1242 (Fla. 4th DCA 2009); see also Parker v. State, 904 So. 2d 370,381 (Fla. 2005) (quoting
Ragan v. Dugger, 544 So. 2d 1052, 1054 (Fla. 1st DCA 1989) (“The proper method by which to raise a claim of
ineffective assistance of appellate counsel is by petition for writ of habeas corpus directed to the appellate court
which considered the direct appeal.”).

12 of 14

messages. See T.T., pp. 610-611, attached. The Court heard argument from the State with regard
to the issue as well. See T.T., pp. 614-621, attached. However, the Court determined that he was
not going to grant any motion to exclude the text messages on the basis of authentication, and
reserved on that point to allow counsel to argue the issue as appropriate. The trial court also
determined that it was the State’s burden to authenticate the text messages should they seek to
introduce them. See T.T., pp. 621, 627 attached.
During the testimony of Larry Smith, a senior security investigator for Metro PCS, the
’ State sought to introduce the text messages and trial counsel objected based on the motions in
limine he had previously raised. See T.T., p. 677, attached. The Court then ruled that the text
messages in the Metro PCS records were business records and that the circumstances and the
testimony of Mr. Smith, authenticated the records. See T.T., p. 678, attached. The Court admitted
the record containing the text messages into evidence. See T.T., p. 679, attached.
After reviewing Defendant’s Motion, the court file, and the record, the Court finds that
Defendant’s allegation is conclusively refuted from the record. Defendant’s trial counsel did not
concede that Defendant created or wrote the text messages originating from a phone registered to
her, but in fact, objected to the introduction of the text messages on that basis. As such,
Defendant has failed to meet his burden as required by Strickland. Accordingly, no relief is
warranted on Ground Six.

13 of 14

A

„ J.

I ^

>

Order
It is therefore ORDERED and ADJUDGED that Grounds One, Two, Three, Four, and
Five of Defendant’s “Motion for Postconviction Relief’ are hereby DISMISSED WITHOUT
PREJUDICE to any right Defendant may have to refile timely, facially sufficient grounds
within SIXTY (60) DAYS of the date of this Order.
It is further ORDERED and ADJUDGED that Ground Six of Defendant’s “Motion for
Postconviction Relief’ is hereby DENIED.
This Order is a non-final, non-appealable Order. Defendant may not appeal until
such time as this Court has entered a Final Order.
DONE and ORDERED in Chambers in Hillsborough County, Tampa, Florida, this
ORIGINAL SIGNED

day of November, 2015.

NOV 1 3 2015
GREGORY P. HOLDER, CircmcgSPiuDGEER
Attachments:
Motion
Verdict Form
Judgment and Sentence
Mandate
Trial Transcript Excerpts

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of this Order has been furnished to Venecia Amalia
Depaula (DC # 155466), Homestead Correctional Institution, 19000 S. W. 377th Street, Florida
City, Florida 33034-6409, by regular U.S. Mail; and to the Office of the State Attorney,
Division E, 419 N. Pierce Street, Tampa, Florida 33602, by inter-office mail; on this 1 Lt^day
of

2015.

14 of 14

I „

. . I

i

.!

,N zzss™®
Criminal Justice and Trial Division

STATE OF FLORIDA
i

CASE NO.:

09-CF-013368

DIVISION:

E

v.
VENECIA DEPAULA,
Defendant.

RU^GRQNTrTAT^T^'nF nCTFND^rS AMFN1!^01^ AND RES™V11>lr;

POUF and FIV K or

IT.JjP1

~ER '|.E,!!'NG.Wl™
THRFF Fm,» ..... FIVE op
DEFENDANT’S MOTION FOR POST CONVICTION RF? TFF
THIS MATTER is before the Court on Defendant’s “

Amended Grounds One, Two, Three,

Four and Five of Motion for Post Conviction

Relief,” filed on March 3, 2016. Previously,
Defendant filed her “Motion for Postconviction Relief’
on February 3, 2015. On November 16,
2015, the Court dismissed clai ms
one, two, three, four, and five of Defendant’s “Motion for
Postconviction Relief without prejudice for Defendant to

refile facially sufficient claims within
Sixty (60) days of the Court’s order. The Court also denied elaim six of Defendant’s “
Motion for
Postconviction Relief.”
On December 28, 2015, and January 4,2016, Defendant requested an enlargement of time
to file her amended claims. On January 7, 2016, the Court granted Defendant an
additional fortyfive (45) days to file her amended claims. Because Defendant provided her “
Amended Grounds
One, Two Three, Four and Five of Motion for Post Conviction Relief
’ to prison officials for
mailing within the timeframe prescribed by the C

ourt, Defendant has made a timely filing. After

reviewing Defendant’s motions, the court file, and the

1 of 10

record, the Court finds as follows.-

J\

J,.t A

In case 09-CF-013368, on February 24,2011, a jury found Defendant guilty of first-degree
premeditated murder, as charged, with a special finding that Defendant did actually possess and
discharge a firearm causing death. See Verdict Form, attached. That same day, the Court sentenced
Defendant to a term of natural life in prison, with a twenty-five (25) year mandatory minimum
sentence. See Judgment and Sentence, attached. The Second District Court of Appeal affirmed
Defendant’s conviction and sentence and issued the mandate on January 30, 2013. See Mandate,
attached.
In her timely, sworn motions, Defendant raises the following grounds for relief:
1. Counsel rendered ineffective assistance by allowing her to reject a favorable plea
offer when counsel knew Defendant suffered from severe mental illness;
2. Counsel was ineffective for failing to move the Court to conduct a hearing to rule
on the question of Defendant’s competency;
3. Ineffective assistance of counsel for failing to object on the grounds that Defendant
was never declared competent to proceed before or during jury trial given that her
competency to proceed was in question;
4. Ineffective assistance of counsel for allowing Defendant to waive her constitutional
rights during trial, without objection, despite knowing she could not make a valid
waiver given her incompetency to proceed; and
5. Ineffective assistance of counsel for disclosing privileged communications to the
State and trial court absent a valid waiver from Defendant.
See Motion for Post Conviction Relief and Amended Grounds One, Two, Three, Four and Five of
Motion for Post Conviction Relief, attached.
In all of her remaining claims, Defendant alleges ineffective assistance of counsel. When
ineffective assistance of counsel is alleged, the burden is on the person seeking collateral relief to
allege the grounds for relief specifically, and to establish whether prejudice resulted. Effective
assistance of counsel does not mean that a defendant must be afforded errorless counsel or that
future developments in law must be anticipated. Meeks v. State, 382 So. 2d 673 (Fla. 1980). In

2 of 10
r-

L

L ,i P

/

Strickland v. Washington, 466 U.S. 668, 686-87 (1984), the U.S. Supreme Court provided the
following standard for ineffective assistance of counsel:
The benchmark for judging any claim of ineffectiveness must be
whether counsel’s conduct so undermined the proper functioning of the
adversarial process that the trial cannot be relied on as having produced
a just result. A convicted defendant’s claim that counsel’s assistance
was so defective as to require reversal of a conviction...has two
components. First, the defendant must show that counsel’s
performance was deficient. This requires showing that counsel made
errors so serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second, the
defendant must show that the deficient performance prejudiced the
defense. This requires showing the errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable...[T]he
proper standard for attorney performance is of reasonably effective
assistance.
In Downs v. State, 453 So. 2d 1102 (Fla. 1984), the Florida Supreme Court stated that a
defendant must prove prejudice affirmatively. The test for prejudice is:
[Tjhat there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.
Strickland, 466 U.S. at 694. However, even if a defendant’s allegations are sufficient to state a
claim for relief, a motion may be summarily denied, without an evidentiary hearing, if the record
conclusively refutes the allegations and demonstrates that the defendant is not entitled to relief.
See Anderson v. State, 627 So. 2d 1170. An evidentiary hearing will be required unless the motion
is facially insufficient or the record demonstrates that the defendant is not entitled to relief. Id.
Claim One
In claim one, Defendant alleges that counsel rendered ineffective assistance by allowing
her to reject a favorable plea offer when counsel knew Defendant suffered from severe mental
illness. See Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction
Relief, attached. Defendant argues that she rejected a plea offer of thirty-five years prison followed
3 of 10
(

k

s"\/) r\

J ,\l ■P'

by probation because counsel “advised her to reject the plea offered and proceed to trial because
to accept the plea would eliminate her right to continue to ‘fight the case.’” Id. Defendant states
that she believed she had to go to trial “in order to preserve her right to appeal her conviction.” Id.
Defendant contends that due to mental illness, she “lacked the capacity to weigh the risk of going
to trial versus acceptance of the plea” and that counsel “had a duty to seek a hearing to making
findings pertaining to her competency.” Id. Defendant states that her counsel knew about her
“history of mental disorders” as evidenced by the fact that she “underwent multiple psychiatric
examinations, with varying results.” Id. “Defendant asserts that the pretrial record in conjunction
with the psychiatric reports support that counsel should have sought a competency hearing.” Id.
Defendant contends that the State “informed the court ‘the homicide committee would probably
offer 35 years, maybe 40 years,’ to which the court responded, ‘I’d approve that.’” Id.
Defendant states that she “rejected a favorable plea offer due to mistake and misadvice of
counsel and was prejudiced by counsel’s deficient performance in advising [her] to reject the plea
offer if she wanted to continue to ‘fight her case.’” Id. Defendant states that she “was mentally
incompetent when she rejected the State’s offer [and] therefore, the rejection of the plea was
involuntary.” Id. Defendant concludes by arguing that her claim has met the elements ofAlcorn v.
State, 121 So. 3d 419 (Fla. 2013), because “(1) were it not for mistake and misadvise of counsel,
[she] would have accepted the plea; (2) the State would not have withdrawn the plea as it would
have been accepted under its terms; (3) the record reflects that the Court would have accepted the
offer because it was fair and reasonable; and (4) the sentence under the terms of the offer would
have been less severe than the life sentence imposed following trial.” Id.
After reviewing the allegations, the court file, and the record, the Court finds that when a
defendant alleges that his or her trial counsel failed to correctly advise him or her with regard to
accepting or rejecting a plea offer, the defendant must show deficient performance and prejudice
4 of 10
f

A

ir\A i </

e

under Strickland. To prove prejudice under such a claim, the defendant must show: “(1) he or she
would have accepted the offer had counsel advised the defendant correctly, (2) the prosecutor
would not have withdrawn the offer, (3) the court would have accepted the offer, and (4) the
conviction or sentence, or both, under the offer's terms would have been less severe than under the
judgment and sentence that in fact were imposed.” See Alcorn, 121 So. 3d at 419.
Here, the Court finds that Defendant has failed to specifically allege what counsel
misadvised her about regarding the plea offer. Defendant’s only allegations concerning counsel’s
advice are that she was told “accepting] the plea would eliminate her right to continue to ‘fight
the case’” and that she believed “she had to go to trial in order to preserve her right to appeal her
conviction.” Because both of those pieces of information are generally correct, counsel could not
have misadvised her regarding those consequences of taking a plea.1 Additionally, the Court notes
that to the extent counsel “misadvised” her by failing to ensure that she was competent in order to
under the plea offer, the Court will address those allegations within claim two below. As such,
upon refiling, Defendant must specifically allege what misadvice counsel provided her with regard
to the plea offer. Consequently, claim one of Defendant’s “Amended Grounds One, Two,
Three, Four and Five of Motion for Post Conviction Relief’ is dismissed without prejudice
• to any right Defendant may have to refile a facially sufficient claim in accordance with the
order above within sixty (60) days of the date of this order. See Spera v. State, 971 So. 2d 754,
761 (Fla. 2007).

1 The Court recognizes that Florida Rule of Appellate Procedure 9.140(b)(2)(a) outlines the instances under which a
defendant may appeal from a guilty plea, thereby allowing a defendant to appeal their conviction even when he or she
has pleaded guilty. However, from the Court’s understanding of Defendant’s claim, it does not appear that she is
alleging counsel was ineffective for failing to inform her of her appellate rights in the instance of a guilty plea.

5 of 10
r\

. _J.., rr

Claim Two
In claim two, Defendant alleges that counsel was ineffective for failing to move the Court
to conduct a hearing to rule on the question of her competency.2 See Amended Grounds One, Two,
Three, Four and Five of Motion for Post Conviction Relief, attached. Defendant argues that the
record “manifestly indicates that [counsel] questioned [her] competence to proceed” and that “her
mental illness impaired her ability to rationally understand the facts or the proceedings against
her.” Id. By incorporating facts included within claim one, Defendant alleges that she has “a
lifelong history of severe mental illness and is being treated by the Department of Corrections for
Depressive Disorder, Borderline Personality Disorder and Borderline Intellectual Functioning.”
Id. Defendant argues that counsel knew of her history of mental disorders as he received “medical
reports.. .from Dr. Patricia Phelps, PhD, and [through] interviews with [her] family.” Id. Defendant
also notes that counsel “twice requested appointment of experts to conduct forensic psychological
examinations” and that “they plainly reflected that [she] suffered from serious mental illness that
would likely affect her ability to make rational decisions to accept or reject a plea offer or proceed
to trial.” Id.
Defendant argues that were it not for her “mental incompetence, had she been of sound
mind, had she been capable of rational thinking, she would have accepted the favorable plea
offered by the State rather than face a mandatory life sentence.” Id. Defendant contends that
“[q]uite simply, [she] was not in her right mind and her attorney did nothing to establish her
incompetence to participate in pretrial or trial proceedings.” Id. Defendant “asserts that she was
not competent to proceed to trial, not competent to reject the State’s plea offer, and not competent

2 The Court notes that Defendant “consolidates” claims two, three, and four of her “Motion for Postconviction Relief’
into just claim two of her “Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction Relief.”
As such, the Court will deny claims three and four of Defendant’s “Motion for Postconviction Relief’ with
prejudice and proceed with claim two as outlined in Defendant’s “Amended Grounds One, Two, Three, Four
and Five of Motion for Post Conviction Relief.”

6 of 10

rJ____ i

I t~.

to waive her right to testify on her own behalf.” Id. Defendant argues that counsel’s “failure to
motion the court to determine her competency, particularly in light of his knowledge of the severity
of her mental illness demonstrates deficient performance.” Id.
After reviewing the allegations, the court file, and the record, the Court finds that “a
postconviction movant claiming ineffective assistance of counsel for failure to investigate or
request a competency determination must establish 'at least’ a reasonable probability that he or
she would have been found incompetent.” Thompson v. State, 88 So. 3d 312, 318 (Fla. 4th DCA
2012). “To satisfy the deficiency prong based on counsel's handling of a competency issue, the
postconviction movant must allege specific facts showing that a reasonably competent attorney
would have questioned competence to proceed.” Id. at 319. The question for the Court is “whether
the defendant has sufficient present ability to consult with counsel with a reasonable degree of
rational understanding and whether the defendant has a rational, as well as factual, understanding
of the pending proceedings.” Id. (quoting Fla. R. Crim. P. 3.211(a)(1)). Furthermore,
[t]he focus of the prejudice inquiry is on actual prejudice, whether,
because of counsel's deficient performance, the defendant's
substantive due process right not to be tried while incompetent was
violated. In order to establish prejudice in a properly raised
ineffective assistance of counsel claim, the postconviction movant
must, as with a substantive incompetency claim, set forth clear and
convincing circumstances that create a real, substantial and
legitimate doubt as to the movant's competency.
Id.
Here, the Court finds that Defendant’s claim is facially sufficient. Further, the Court finds
that the record does not conclusively refute Defendant’s allegations. The Court notes it appears
that Defendant’s attorney did file at least one motion requesting an evaluation of Defendant’s
competency, however nothing in the record reflects the outcome of the evaluation nor does the
record reflect that there was a hearing held to discuss the results of the evaluation. However,

7 of 10

J

because the Court is allowing Defendant sixty (60) days to cure the facial deficiencies in claim
one, the Court reserves ruling on claim two at this time.
Claim Five
In claim five, Defendant alleges that counsel rendered ineffective assistance by disclosing
priviledged communications to the State and to the Court absent a valid waiver. See Amended
Grounds One, Two, Three, Four and Five of Motion for Post Conviction Relief, attached.
Defendant “concedes this ground on the basis that prejudice cannot be established because neither
the State nor the defense relied on this disclosed report at trial” but “reasserts that counsel erred in
disclosing Dr. Gamache’s privileged competency evaluation that was protected by attorney-client
privilege where she did not waive confidentiality.” Id.
Consequently, because Defendant agrees that she is unable to cure the deficiencies in
claim five after being given the opportunity to do so, claim five of Defendant’s “Motion for
Post Conviction Relief’ is properly denied with prejudice. See Fla. R. Crim. P. 3.850(f)(2)
(2017).

8 of 10

h

^jC

It is therefore ORDERED and ADJUDGED that claim one of Defendant’s “Amended
Grounds One, Two, Three, Four and Five of Motion for Post Conviction Relief’ is hereby
DISMISSED WITHOUT PREJUDICE to any right Defendant may have to refile a timely,
facially sufficient claim within SIXTY (60) DAYS of the date of this order.
It is further ORDERED and ADJUDGED that claims three, four, and five of Defendant’s
“Motion for Postconviction Relief’ are hereby DENIED WITH PREJUDICE.
It is further ORDERED that the Court hereby RESERVES RULING on claim two of
Defendant’s “Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction
Relief.”
Defendant may not appeal until such time as this Court has entered a final order.
DONE and ORDERED in Chambers in Hillsborough County, Tampa, Florida, this
day of June, 2017.

ORIGINAL SIGNEL
CONFORMED COPY

'JUN 0 9 2017
MARK D. KISER

MARK KISER, Circuit Judge CIRCUIT JUDGF
Attachments:
Verdict Form
Judgment and Sentence
Mandate
Motion for Post Conviction Relief
Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction Relief

9 of 10

71

r\

_ i,. / jC-

CERTIFICATE OF SERVICE
I hereby certify that a copy of this order has been furnished to Venecia Depaula, DC #
155466, Homestead Correctional Institution, 19000 S. W. 377th Street, Florida City, Florida
33034-6409, by regular U.S. Mail; and to the Office of the State Attorney, Division E, 419 N.
Pierce Street, Tampa, Florida 33602, by inter-office mail; on this

day of June, 2017.

%

i

/it
DEPUTY CLE

10 of 10

h

t/~\. /-\/J

/J i\ I

if^

IN THE CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR HILLSBOROUGH COUNTY, FLORID^: Legal Mail
Received

SEP 2 2 2017

VENECIA AMALIA DEPAULA,
Defendant/Petitioner,

Homestead

Correctional Institution
v.

CASE NO.: 09-CF-013368

STATE OF FLORIDA
Plaintiff.

DIVISION: E

AMENDED GROUNDS ONE,
OF MOTION FOR POST CONVICTION RELIEF
VENECIA AMALIA DEPAULA,

pro

se,

herein

responds

the

order of this Honorable Court issued August

29,

leave

Conviction Motion

to

amend

ground

one

(1)

of

her

Post

2017

to

granting

filed pursuant to Florida Rule 3.850.
Defendant offers amendment of her post conviction motion as
follows:
The

Defendant

ground through
case.

was

Spera,

granted

defendant

the
is

opportunity
a pro

se

to

amend

litigant

her

in this

Defendant is unversed in the law and lacks the level of

comprehension

to

reasoning

legal

and

learn

complex

doctrines

criminal

required

to

procedure,
present

a

legal
coherent

theory to challenge given the opportunity to amend and due to
lack of counsel the amendment was again found insufficient and
the claim was denied.

Defendant do not possess a six

(6)

1

nl 6)

grade

TABE

score

and

is

incapable

of

understanding

the

nature

and

complexity of her case even with the guidance of an inmate law
clerk.

Moreover

defendant how
grounds 3, 4,

this

she

has

not

explained

to

in her motion on

and 5 in which the court denied these ground with

The

grant

opportunity

evidentiary

court

should cure these defects

prejudice.
her

honorable

Defendant

hearing

to

with

is

requesting

cure
the

and

this

revisit

assistance

honorable
these

of

the

court

defects

at

evidentiary

hearing attorney that is appointed to Defendant.

2
rv /^i/l I'JL ^

GROUND I
COUNSEL RENDERED INEFFECTIVE ASSISTANCE BY
ALLOWING DEFENDANT TO REJECT A FAVORABLE
PLEA OFFER WHERE COUNSEL POSSESSED KNOWLEDGE
THAT DEFENDANT SUFFERED FROM SEVERE MENTAL
ILLNESS.
Defendant
years

in

rejected

Florida

Defendant

State

proceeded

a

favorable plea offer

prison with

to

trial

Ten

for

(10)

First

of thirty
Years

Degree

(30)

probation.

Premeditated

Murder with a Firearm where she was found guilty and sentenced
to natural life with a twenty-five

(25)

year mandatory minimum

in prison without the possibility of parole.
that

counsel

failed

to

correctly

inform

Defendant asserts

her

of

the

maximum

penalty that she faced. Counsel advised defendant to reject the
plea offer because if she proceeded to trial she would receive a
lesser sentence because of her mental illness. On the assurance
and persuasive argument of trial counsel Defendant went to trial
without

a

plea agreement

imprisonment

longer

and

than

was

what

sentenced

she

would

have

accepted the plea agreement it's evident that,
mental

illness,

defendant

lacked

the

to

a

term

served

had

of
she

due to defendant

capacity

to

rationally

weigh the risk of going to trial versus acceptance of the plea.
The

record

history

of

in

this

severe

diagnosed

with

Department

of

a

case

mental
mental

corrections

is

clear;

illness.
illness
for

Defendant
The

and

defendant

is

Depressive
3

had

being

a

lifelong

presently

treated by

Disorder,

is
the

Borderline

Personality
Counsels

Disorder

knew that

and

Borderline

defendant's has

Intellectual

Functioning.

history of mental

disorder

that was supported by medical report.
Furthermore,
"trying

counsel indicated that he and the State were

to

reach

a

resolution"

necessarily

want

a

trial".

homicide

committee

could

and

the

State

probably

Defendant,

informed
offer

35

"does

the

court

years,

not
"the

maybe

40

years", to which the court responded, "I'd approve that".

Rules
Bar,

ascribe

provide
legal

of professional

the

rights

counsel's
defendant
and

conducts

as

responsibilities
with

an

obligations

framed by the

Florida

as

are

informed
and

to

an

advisor

understanding

explain

their

of

to
her

practical

implications. Defense counsel failure to convey a favorable plea
offer falls below this standard.
rights

to

adequate

Sixth Amendment

legal

were

Montejo v. Louisiana,
2009)

The defendant's constitutional

representation as provided under the

violated.

This

129 S.Cts. 2079,

citing United States v. Wade,

which held that
initiated,

supported
566 U.S.

388 U.S.

in the
778

case

(U.S.

218 227-228

of

(La.)
(1967)

"Once the adversary judicial process has been

the Sixth Amendment guarantees a defendant the right

to have counsel present at all "critical" stages of the criminal
proceedings."

The Supreme Court opinion rendered in Frye,

found

that "plea bargains have become so central to the administration
4
C

J\ ^ \OOrv\ I J.

of

the

criminal

responsibilities

justice

system

that

defense

in the plea bargain process,

counsel

have

responsibilities

that must be met to render adequate assistance counsel that the
Sixth Amendment requires in the criminal process critical stages
Because our system is for the most part a system of pleas and
not a system of trials,' during plea negotiations."
Defense

counsel

was

ineffective

and

violated

the

defendant's Sixth Amendment rights to representation by counsel
at

this

most

critical

point

of

the

Defendant's

case

and

his

performance fell below both the State and Federal standards for
adequate

legal

sentence to be

representation

and

directly

imposed on the Defendant.

caused

a

harsher

Had counsel properly

advised the defendant she would have accepted the plea offer of
thirty (30)

years offered by the State.

without

plea agreement

a

imprisonment

longer

and

was

Defendant went to trial

sentenced

to

a

than what defendant .would have

term

of

served had

she accepted the plea agreement. Counsel's deficient performance
prejudiced
accept

a

the
lesser

Defendant
sentence.

who

was

The

denied

Defendant

the

opportunity

rejected

a

to

favorable

plea offer due to error and misadvise of counsel. Counsel could
not effectively meet this standard because the defendant in this
case

was

mentally

incapable

of

incompetent

comprehending
when

she

his

rejected

advice
the

Defendant
State's

therefore, the rejection of the plea was involuntary.
5

u 6

was

offer;

In considering the case of Alcorn v.
(Fla.

2013)

Court's

on

Cooper,

Florida

121 So. 3d 419

the Florida Supreme Court applied the U.S.

decisions

Lafler v.

State,

in

Missouri

132 S.Ct.

Jurisprudence

v.

Frye,

1376,

(U.S.

concerning

132
2012)

S.Ct.

Supreme

1399,

and

and their impact

ineffective

assistance

of

counsel claims where a plea is not accepted based on counsel's
misadvise or because of counsel's failure to convey the plea to
the defendant.

The Florida Justices held that:

"to establish prejudice the defendant must allege and
prove a reasonable probability that he would have
accepted plea offer, the prosecutor would not have
withdrawn the offer, the court would have accepted the
offer, and the conviction or sentence would have been
less severe."
The Defendant has met all of the elements of Alcorn based
on the following:
1. the Defendant would have accepted the plea;
2. The

State

would

not

have

withdrawn

the

plea

as

it

would have been accepted under its terms;
3. The Court would have accepted the offer because it was
fair and reasonable and,
4. The sentence under the terms of the offer would have
been less severe than the natural life and twenty-five
(25)

mandatory

minimum

sentence

imposed

following

trial.

6

f\/l ( J P\

Based on

the

foregoing the proper remedy for

ineffective

assistance is to order the State to reoffer the plea agreement
and

resentence

the

Defendant

and/or

conduct

an

evidentiary

hearing.
Respectfully Submitted,

/SS-4&C/
VENECIA

155466

CERTIFICATION AND OATH OF DEFENDANT
Under penalty of perjury,
Defendant,

hereby certify that I am filing this Amended Motion

for Post Conviction Relief,
good

faith

I, VENECIA AMALIA DEFENDANT, the

with

a

pursuant to Fla.R.Crim.P.

reasonable

belief

that

it

is

3.850,

timely,

in
has

potential merit and does not duplicate any previous motions that
have been disposed by the court.
By
that

I

signing

this motion pursuant

understand

English,

have

read

to

this

the

rule,

motion

I
or

certify
had

the

motion read to me and I understand its content.
Based on the foregoing I hereby certify that the foregoing
document and the contained therein, to the best of my knowledge
and recollection, are true and correct.

Executed on this 21st day of September 2017.

fit

v

'<X

/5Sf60

VENECIA AMALIA DEPAULk, DC# 155466

7

td C

CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT I PLACED THAT AMENDED GROUNDS ONE MOTION
FOR POST CONVICTION RELIEF INTO THE HANDS
OF HOMESTEAD
CORRECTIONAL INSTITUTION'S MAILROOM STAFF FOR MAILING TO:
Hillsborough County Clerk of the Circuit Court
Felony Division
P.O. Box 1110
Tampa, FL 33601-1110
(And to)
Office of the State Attorney
Hillsborough County
419 N. Pierce Street
Tampa, FL 33602

On this 6nd day of July, 2017

imm/t

Jf

VENECIA AMALIA DEPA
< DC# 155466
HOMESTEAD CORRECTIONAL INSTITUTION
19000 S.W. 377TH STREET, SUITE 200
FLORIDA CITY, FLORIDA 33034

8
{

!

IN THE THIRTEENTH JUDICIAL CIRCUIT COURT
FOR HILLSBOROUGH COUNTY, FLORIDA
Criminal Justice and Trial Division

i

STATE OF FLORIDA

CASE NO.:

09-CF-013368

DIVISION:

E

v.
VENECIA DEPAULA,
Defendant.

ORDER GRANTING EVIDENTIARY HEARING ON CLAIM ONE OF DEFENDANT’S
AMENDED GROUNDS ONE OF MOTION FOR POST CONVICTION RELIEF AND
ON CLAIM TWO OF DEFENDANT’S AMENDED GROUNDS ONE. TWO. THREE.
FOUR AND FIVE OF MOTION FOR POST CONVICTION RELIEF
and
ORDER APPOINTING THE OFFICE OF THE PUBLIC DEFENDER
and
ORDER SETTING MATTER FOR STATUS ON FEBRUARY 12.2018 AT 8:30A.M.
THIS MATTER is before the Court on the “State’s Response to the Order of the Court,’1
\

filed on December 19, 2017. Previously, Defendant filed her “Motion for Postconviction Relief'
on February 3, 2015. On November 16, 2015, the Court dismissed claims one, two, three, four,
and five of Defendant’s “Motion for Postconviction Relief without prejudice for Defendant to
refile facially sufficient claims within sixty days of the Court’s order. The Court also denied claim
six of Defendant’s “Motion for Postconviction Relief.”
On December 28,2015, and January 4,2016, Defendant requested an enlargement of time
to file her amended claims. On January 7, 2016, the Court granted Defendant an additional fortyfive days to file her amended claims. Defendant filed her “Amended Grounds One, Two, Three,
Four and Five of Motion for Post Conviction Relief’ on March 3, 2016.
On June 12,2017, the Court dismissed claim one of Defendant’s “Amended Grounds One,
Two, Three, Four and Five of Motion for Post Conviction Relief’ without prejudice for Defendant
to refile a facially sufficient claim within sixty days of the Court’s order. Further, the Court

1 of 9

reserved ruling on claim two of Defendant’s “Amended Grounds One, Two, Three, Four and Five
of Motion for Post Conviction Relief’ and denied claims three and four of Defendant’s “Motion
for Postconviction Relief’ with prejudice as Defendant did not refile those claims in accordance
with the Court’s November 16, 2015, order. The Court also denied claim five of Defendant’s
“Motion for Postconviction Relief’ with prejudice after Defendant conceded that she could not
amend the claim in accordance with the Court’s order.
On July 10, 2017, Defendant filed her “Amended Grounds One of Motion for Post
Conviction Relief,” but because it was not under oath, the Court dismissed it without prejudice on
August 30, 2017. In its August 30, 2017, order, the Court allowed Defendant sixty days to refile a
sworn, facially sufficient motion in accordance with Rule 3.850. Defendant then filed a sworn
version of her “Amended Grounds One of Motion for Post Conviction Relief’ on September 25,
2017.
On November 21, 2017, the Court rendered an order for the State to respond to claim one
of Defendant’s “Amended Grounds One of Motion for Post Conviction Relief’ and to ground two
of Defendant’s “Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction
Relief.” The State filed its response on December 19,2017. After reviewing Defendant’s motions,
the State’s response, the court file, and the record, the Court finds as follows:
In case 09-CF-013368, on February 24,2011, a jury found Defendant guilty of first-degree
premeditated murder, as charged, with a special finding that Defendant did actually possess and
discharge a firearm causing death. See Verdict Form.1 That same day, the Court sentenced
Defendant to a term of natural life in prison, with a twenty-five year mandatory minimum sentence.

1 The Court notes that it will not provide attachments with the instant order as they were previously provided in the
Court’s November 21, 2017, order for the State to respond.

2 of 9

' " l .•

See Judgment and Sentence. The Second District Court of Appeal affirmed Defendant’s conviction
and sentence and issued the mandate on January 30,2013. See Mandate.
In her timely, sworn motions, Defendant raises the following grounds for relief:
1. Counsel rendered ineffective assistance by allowing her to reject a favorable plea
offer when counsel knew Defendant suffered from severe mental illness; and
2. Counsel was ineffective for failing to move the Court to conduct a hearing to rule
on the question of Defendant’s competency.
See Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction Relief and
Amended Grounds One of Motion for Post Conviction Relief, attached.
In her remaining claims, Defendant alleges ineffective assistance of counsel. When
ineffective assistance of counsel is alleged, the burden is on the person seeking collateral relief to
allege the grounds for relief specifically, and to establish whether prejudice resulted. Effective
assistance of counsel does not mean that a defendant must be afforded errorless counsel or that
future developments in law must be anticipated. Meeks v. State, 382 So. 2d 673 (Fla. 1980). In
Strickland v. Washington, 466 U.S. 668, 686-87 (1984), the U.S. Supreme Court provided the
following standard for ineffective assistance of counsel:
The benchmark for judging any claim of ineffectiveness must be
whether counsel’s conduct so undermined the proper functioning of the
adversarial process that the trial cannot be relied on as having produced
a just result. A convicted defendant’s claim that counsel’s assistance
was so defective as to require reversal of a conviction.. .has two
components. First, the defendant must show that counsel’s
performance was deficient. This requires showing that counsel made
errors so serious that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth Amendment. Second, the
defendant must show that the deficient performance prejudiced the
defense. This requires showing the errors were so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable...[T]he
proper standard for attorney performance is of reasonably effective
assistance.

3 of 9

fi~

In Downs v. State, 453 So. 2d 1102 (Fla. 1984), the Florida Supreme Court stated that a
defendant must prove prejudice affirmatively. The test for prejudice is:
[Tjhat there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.
Strickland, 466 U.S. at 694. However, even if a defendant’s allegations are sufficient to state a
claim for relief, a motion may be summarily denied, without an evidentiary hearing, if the record
conclusively refutes the allegations and demonstrates that the defendant is not entitled to relief.
See Anderson v. State, 627 So. 2d 1170. An evidentiary hearing will be required unless the motion
is facially insufficient or the record demonstrates that the defendant is not entitled to relief. Id.
Claim One
In claim one, Defendant alleges that counsel rendered ineffective assistance by allowing
her to reject a favorable plea offer when counsel knew Defendant suffered from severe mental
illness. See Amended Grounds One of Motion for Post Conviction Relief. Defendant states that
she “rejected a favorable plea offer of thirty (30) years in Florida State prison with ten (10) years
probation” and was ultimately sentenced to “natural life with a twenty-five (25) year mandatory
minimum in prison without the possibility of parole.” Id.
Defendant “asserts that counsel failed to correctly inform her of the maximum penalty that
she faced” and “advised [her] to reject the plea offer because if she proceeded to trial she would
receive a lesser sentence because of her mental illness.” Id. Defendant states that she “lacked the
capacity to rationally weigh the risk of going to trial versus acceptance of the plea.” Id. Defendant
contends that if counsel had “properly advised [her,] she would have accepted the plea offer of
thirty (30) years offered by the State” and that because of counsel’s deficient performance, she
“was denied the opportunity to accept a lesser sentence.” Id.

4 of 9

Hr

Defendant cites to Alcorn v. State, 121 So. 3d 419 (Fla. 2013), and argues that she has met
all of the elements of Alcorn because she “would have accepted the plea; the State would not have
withdrawn the plea as it would have been accepted under its terms; the Court would have accepted
the offer because it was fair and reasonable; and the sentence under the terms of the offer would
have been less severe than the natural life and twenty-five (25) mandatory minimum sentence
imposed following trial.” Id.
In response, the State highlights that while Defendant is now claiming “that her trial
counsel ‘failed to inform her of the maximum penalty that she faced’ and ‘advised the defendant
to reject the plea offer because if she proceeded to trial she would receive a lesser sentence because
of her mental illness,’” Defendant “did not make these allegations” in her previous filing “and, in
fact, alleged different ‘misadvice’ from her trial counsel.” See State’s Response to Order of the
Court attached. The State notes “that a plea offer was made to the defendant between February 14,
2011, and February 21, 2011,” which “was to allow her to plead guilty to [the] reduced lessor
included offense of Second Degree Murder with a Firearm in exchange for a sentence of 35 years
in the Florida State Prison following by 10 years [of] probation with a 25 year minimum mandatory
sentence pursuant to the 10-20-Life statute.” Id. The State argues that Defendant is mistaken that
there was a thirty-year plea offer and states that “the suggested ‘favorable’ plea offer was not as
favorable as the defendant is alleging in her motion, especially to a defendant who had never been
sentenced to prison before.” Id.
The State argues that “[although the allegations as to the alleged advice from her counsel
as now pleaded in her most recent motion cannot, on their face, be refuted by the record, the
allegations, when looked at in light of the previously filed motion and it’s totally different
allegations of ‘misadvice’ from her counsel, appear to be completely disingenuous and false.” Id.
However, the State acknowledges that the “Court is required upon summary review to accept the
5 of 9

t/W/i/kY. ff

/* -

defendant’s allegations as being true unless they are conclusory in nature or are refuted by the
record.” Id.
After reviewing the allegations, the court file, and the record, the Court finds that in
light of the State’s response, Defendant is entitled to an evidentiary hearing on claim one of
her “Amended Grounds One of Motion for Post Conviction Relief.”
Claim Two
In claim two, Defendant alleges that counsel was ineffective for failing to move the Court
to conduct a hearing to rule on the question of her competency. See Amended Grounds One, Two,
Three, Four and Five of Motion for Post Conviction Relief. Defendant argues that the record
“manifestly indicates that [counsel] questioned [her] competence to proceed” and that “her mental
illness impaired her ability to rationally understand the facts or the proceedings against her.” Id.
By incorporating facts included within claim one, Defendant alleges that she has “a lifelong history
of severe mental illness and is being treated by the Department of Corrections for Depressive
Disorder, Borderline Personality Disorder and Borderline Intellectual Functioning.” Id. Defendant
argues that counsel knew of her history of mental disorders as he received “medical reports.. .from
Dr. Patricia Phelps, PhD, and [through] interviews with [her] family.” Id. Defendant also notes
that counsel “twice requested appointment of experts to conduct forensic psychological
examinations” and that “they plainly reflected that [she] suffered from serious mental illness that
would likely affect her ability to make rational decisions to accept or reject a plea offer or proceed
to trial.” Id.
Defendant argues that were it not for her “mental incompetence, had she been of sound
mind, had she been capable of rational thinking, she would have accepted the favorable plea
offered by the State rather than face a mandatory life sentence.” Id. Defendant contends that
“[q]uite simply, [she] was not in her right mind and her attorney did nothing to establish her
6 of 9

hf

incompetence to participate in pretrial or trial proceedings.” Id. Defendant “asserts that she was
not competent to proceed to trial, not competent to reject the State’s plea offer, and not competent
to waive her right to testify on her own behalf.” Id. Defendant argues that counsel’s “failure to
motion the court to determine her competency, particularly in light of his knowledge of the severity
of her mental illness demonstrates deficient performance.” Id.
In response, the State argues that “the fact that the defendant rejected the plea offer from
the State, in and of itself, is not a determinative fact suggesting incompetence of this defendant.”
See State’s Response to the Order of the Court, attached. The State concedes that a “hearing
wherein the Court can hear from trial counsel ... will be necessary” to determine whether
Defendant had “sufficient present ability to consult with counsel with a reasonable degree of
rational understanding and whether the defendant [had] a rational, as well as factual, understanding
of the pending proceedings.” Id.
After reviewing the allegations, the court file, and the record, the Court finds that in
light of the State’s response, Defendant is entitled to an evidentiary hearing on claim two of
her “Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction
Relief.”

7 of 9

/ i—i"

It is therefore ORDERED AND ADJUDGED that Defendant is hereby GRANTED AN
EVIDENTIARY HEARING on claim one of her “Amended Grounds One of Motion for Post
Conviction Relief’ and on claim two of her “Amended Grounds One, Two, Three, Four and Five
of Motion for Post Conviction Relief.”
It is further ORDERED that the Office of the Public Defender is hereby APPOINTED in
this matter for the limited purpose of representing Defendant at the evidentiary hearing. Such
representation shall terminate automatically upon conclusion of the evidentiary hearing unless
otherwise ordered by the Court.
It is further ORDERED that this matter is SET FOR A STATUS HEARING on
February 12,2018, at 8:30 a.m. at which time APPOINTED COUNSEL SHALL ADVISE the
Court whether there is any conflict in further representation of Defendant by the Office of the
Public Defender.
Defendant may not appeal until this Court has entered a final order.
DONE AND ORDERED in Chambers in Hillsborough County, Florida, this
ORIGINAL SIGNED
CONFORMED COPY

of January, 2018.

JAN 2 2 2018
MARK D. KISER
CIRCUIT JUDGE

MARK KISER, Circuit Judge
Attachments:
State’s Response to the Order of the Court

c

Vv'\0-

\,W
OP
8 of 9

t/l /*11'O/J

i,./ U

day

CERTIFICATE OF SERVICE
I hereby certify that a copy of this order has been furnished to Venecia Depaula, DC#:
155466, Homestead Correctional Institution, 19000 S. W. 377th Street, Florida City, Florida
33034-6409, by regular U.S. Mail; and to the Office of the Public Defender, 700 East Twiggs
Street, Tampa, Florida 33602, and to Scott Harmon, Assistant State Attorney, 419 N. Pierce
Street, Tampa, Florida 33602, by inter-office mail; on this

it

day of January, 2018.

jJiIlituiQ
E^PUTY^LERK

9 of 9
iv^ ijL

{L&ptj

/f-f ^
/?</

4

W]E CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CIRCUIT
IN AND FOR HILLSBOROUGH COUNTY, FLORIDA

NECIA DEPAULA,
APPELLANT

vs.

CASE NO.: 09CF13368

STATE OF FLORIDA,
RESPONDENT

MOTION TO APPOINT CONFLICT FREE COUNSEL

COMES NOW, the Appellant, VENECIA DEPAULA, pro se and requests this
Honorable Court to grant her motion to appoint conflict free counsel. In support
thereof the appellant states the following:
1. On May 15, 2018 the appellant had a legal call in the classification
department of Homestead Correctional Institution with her court appointed
attorney Ms. Kay Murray in reference to a motion for post conviction in
which the court granted the appellant an evidentiary hearing.
2. Ms. Murray stated that she did not believe the appellant’s claim that her trial
attorney Bryant Camamo misadvised her to reject plea offer and that she
would face a lesser sentence at trial.

\

3. Ms. Murray stated that she does not believe for a minute that Mr. Camarano
told the defendant not to take the 30year plea deal offered by the State. Ms
Murray further stated that defendant stories change from her original motion
from 35 years to 30 years. Defendant admits that they are lot of
typographical errors in her motion, however, the court still found merit in
her petition. Ms Murray is aware that defendant’s first language is Spanish
and her comprehension of English is very poor. Her intellectual capacity to
understand the court proceedings is in question, and that an interpreter is
needed due to her comprehension issues. The defendant IQ is under 70
4. Ms. Murray stated that she has more than 25 years experience as an attorney
and believed that the defendant is lying about her trial attorney’s actions Ms.
Murray attempted to coerce the defendant to recant her earlier claims in the
post conviction motion because trial attorney in the words of Mr. Camarano
is a good lawyer and that Depaula must have misconstrued what he
explained to her.
5. Defendant informed Ms. Murray that she would like to be present at her
status hearing because she received a notice that states that her presence is
required. Ms Murray has repeatedly denied her request to be present at the
status hearing.

-Afhiwl i \L

dfrat

6. Ms. Murray has an obvious bias in favor of Mr. Camarano in believing that
there is no merit to Defendant’s case. Ms. Murray is not the judge and
therefore cannot extrapolate what a judge would rule in the matter of the
evidentiary hearing. Ms. Murray should be transferred from this case this
establishes prejudice on the defendant case because of her relationship/
friendship with Mr. Camarano this is a gross conflict of interest.
Appellant prays this court to appoint her a conflict free attorney so that she may
proceed with the evidentiary hearing granted by the court.

Respectfully Submitted

Ol.
VENECIA DEPAULAJDC# 155466

${)|Pnp1*4^'

UNNOTARIZED OATH

UNDER PENALTIES OF PERJURY, I, VENECIA DEPAULA DC#
155466, and administrative sanctions from the Department of Corrections,
including forfeiture of gain time if this motion is found to be frivolous or made in
bad faith, I certify that I understand the contents of the forgoing motion, that the
facts contained in the motion are true and correct, and I have a reasonable belief
that the motion is timely filled. I certify that this motion does not duplicate
previous motions that have been disposed of by the court. I further certify that I
understand English and have read the forgoing motion or had the motion read to
me, or the foregoing motion was translated completely into language which I
understand and read to me:

T

S',
DATE

VENECIA DEPAULA DC# 155466

dD -

i. ■

CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT I PLACED THIS MOTION TO APPOINT
CONFLICT FREE COUNSEL IN THE HANDS OF HOMESTEAD
CORRECTIONAL INSTITUTION MAILROOM STAFF FOR MAILING TO:
Clerk of Court
Hillsborough County
P.O. BOX 3360
Tampa, Florida 33601-3360
(And to)
Office of the State Attorney
419 N. Pierce Street
Tampa, Florida 33602
On this

/fy day of Writ//

,2018

<Z

VENECIA DEPAULA DC#'! 55466
Homestead Correctional Institution
19000 S.W. 377th Street, Suite 200
Florida City, Florida 33034

J- ' pAfll ^ (0

r
IN THE THIRTEENTH JUDICIAL CIRCUIT COURT
FOR HILLSBOROUGH COUNTY, FLORIDA
Criminal Justice and Trial Division
STATE OF FLORIDA

CASE NO.: 09-CF-013368

MAR 13 2019

V.

VENECIA DEPAULA,
Defendant.

CLERK Of CIRCUIT COURT

DIVISION: E

FINAL ORDER DENYING CLAIM ONE OF DEFENDANT’S AMENDED GROUNDS
ONE OF MOTION FOR POST CONVICTION RELIEF AND CLAIM TWO OF
DEFENDANT’S AMENDED GROUNDS ONE. TWO. TffRFF. FOUR AND FIVE OF
MOTION FOR POST CONVICTION RELIEF
THIS MATTER is before the Court on Defendant’s “Amended Grounds One, Two, Three,
Four and Five of Motion for Post Conviction Relief,” filed on March 3, 2016, her “Amended
Grounds One ofMotion for Post Conviction Relief,” filed on September 25,2017, and the “State’s
Response to the Order of the Court,” filed on December 19,2017. On January 23,2019, the Court
entered an order granting Defendant an evidentiary hearing on claim one of her “Amended
Grounds One ofMotion for Post Conviction Relief’ and on claim two of her “Amended Grounds
One, Two, Three, Four and Five of Motion for Post Conviction Relief.” The Court held an
evidentiary hearing on Defendant’s allegations on February 8,2019. After reviewing Defendant’s
motions, the State’s response, the evidence and testimony presented at the evidentiary hearing, the
court file, and the record, the Court finds as follows:
in case 09-CF-013368, on February 24,2011, a jury found Defendant guilty of first-degree
premeditated murder, as charged, with the special finding that Defendant did actually possess and
discharge a firearm causing death. See Verdict Form.1 That same day, the Court sentenced
Defendant to a term of natural life.in prison, with a twenty-five year mandatory minimum sentence.

1 The Court notes that it will not provide attachments with the instant order as they were previously provided with the
Court’s November 21,2017, order for the State to respond.
1 Of 12

^**■1

See Judgment and Sentence. The Second District Court of Appeal affirmed Defendant’s conviction
and sentence and issued the mandate on January 30,2013. See Mandate.
In her timely, sworn motions, Defendant raises the following grounds for relief:
1. Counsel rendered ineffective assistance by allowing her to reject a favorable plea
offer when counsel knew Defendant suffered from severe mental illness; and
2. Counsel was ineffective for failing to move the Court to conduct a hearing to rule
on the question of Defendant’s competency.
See Amended Grounds One, Two, Three, Four and Five of Motion for Post Conviction Relief and
Amended Grounds One of Motion for Post Conviction Relief.
Evidentiary Hearing Testimony.
The defense first called Mr. Bryant Camareno, Defendant’s trial counsel. Mr. Camareno
testified he represented Defendant either from the time of her arrest, or shortly after her arrest,
through her trial. See Evid. Hrg. T. p. 8, attached. Mr. Camareno testified he filed a “Notice of
Intent to Rely on the Defense of Battered Spouse Syndrome and/or Intent to Rely on Insanity at
Time of the Offense” in July of2010. See Hrg. T. pp. 8-9, attached. Mr. Camareno testified he had
both Dr. Gamache and Dr. Northrup evaluate Defendant, but that neither doctor found Defendant
to be incompetent or eligible to claim the defense of insanity at the time of the offense. See Hrg.
T. p. 10, attached. Mr. Camareno was aware Defendant “suffered from depression [and] perhaps
anxiety” ,and knew that Defendant had previously contemplated suicide. See Hrg. T. p. 11,
attached. When asked what his input was to the doctors with regard to Defendant’s state of mind,
Mr. Camareno testified as follows:
MR. CAMARENO:

Well, it was my hope that they would say she was insane at
the time or that she was incompetent either at the time of the
incident or, perhaps, during the course of the trial. She was
very, Ms. DePaula, very soft spoken, very quiet. Nothing
that I observed that would lead me to believe that she would
commit such a violent act. So I was concerned with her
mental health, if you will, or well being.
2 of 12

JL-

r

r
But in terms of- so the hope was that either Dr. Gamache or
Dr. Northrop would give me something to pursue that
battered spouse syndrome or insanity at the time. So since
they didn't give me that, I could Only give them what I knew
ofher which was, again, that she was not a victim ofphysical
abuse but more of emotional abuse. And that's, again, one of
the things, I think that took the wind out of the sails of my
battered spouse syndrome that it wasn't a violent
relationship. It was just toxic in that he would - the victim
would come and go and have women, girlfriends while
living with her and taking advantage of her kindness, if you
will.
So to answer your question, I tried to get these doctors to
give me something that I could go forward with, but Ms.
DePaula was a very candid, very honest person with
everything that had gone on in her life, that nothing that she
was giving me would help them in their assessment and plus,
I guess, whatever conversation she had with them privately.
Also, there was nothing there. So there was only so much I
could do in terms of what I knew of Ms. DePaula.

See Hrg. T. pp. 13-14, attached.
Mr. Camareno testified he did not consider having a competency hearing because, based
on what Dr. Gamache and Dr. Northrup indicated in their reports, he did not “think [he] had a good
faith basis to do that.” See Hrg. T. pp. 14-15, attached.
Mr. Camareno testified he believed the plea offer from the State was for a thirty-five year
prison sentence. See Hrg. T. p. 19, attached. Mr. Camareno could not specifically recall when that
offer was extended by the State, but did know “that it was some time before July of 2010.” See
Hrg. T. p. 20, attached. Mr. Camareno testified the offer was conveyed to Defendant and that he
would have last discussed it with her “leading up to the pretrial.” See Hrg. T. p. 21, attached. When
asked what Defendant’s “state of mind” was at the time the offer was conveyed, Mr. Camareno
testified as follows:
MR. CAMARENO:

She was not happy. She was not happy that the State was
making that kind of offer. You know, she had just clearly
just had a baby. Again, she was pregnant during the
3 of 12
r

/U

/-N t

r
commission of the offense, gave birth to the baby in jail, had
not seen the baby, had no contact and her thought process
was a 35-year offer was pretty much a life sentence for her
personally because - not that she was older, but it was just a
lifetime for her and certainly a lifetime of not having contact
with her child, so her thought process was she wasn't happy
with that offer.
See Hrg. T. p. 22, attached.
Mr. Camareno testified that while Defendant “was definitely depressed and anxious about
the whole process ... [it was] never to the point where [he] felt that she didn’t understand what
was going on.” See Hrg. T. p. 23, attached. Mr. Camareno reiterated that he “had no concerns
about her not understanding what was being conveyed because of her concerns about a 35-year
sentence, the loss of not being able to see her child for the next 35 years ... [He] didn’t have
concerns that she didn’t understand what was going on.” See Hrg. T. p. 31, attached. Mr. Camareno
testified it was “made clear to her that if [they] proceeded to trial and she lost, no matter how much
mitigation [he] offered ... it was a mandatory life sentence.” Id. Mr. Camareno reiterated that
Defendant “wasn’t happy” with the offer provided by the State, so she gave him the authority to
counter-offer ten years’ prison, which was rejected by the State. See Hrg. T. p. 35, attached.
When asked whether he ever attempted to determine if Defendant was on any medications
at the time he discussed the plea offer with her, Mr. Camareno testified he “never had any questions
or concerns [about] whether she was on medication or not.” See Hrg. T. p. 37, attached.
On cross-examination, Mr. Camareno testified that while it was his recollection that
Defendant was willing to serve ten years in prison, it may have been five. See Hrg. T. pp. 45-46,
attached. Mr. Camareno testified that while he could not recall the specific number of times he met
with Defendant, he knew “that leading up to the trial that it had to be very fiequently because...
[they] were about to make a decision [on]... yes versus no about going to trial and then the trial
prep itself.” See Hrg. T. p. 48, attached. When asked whether Defendant was involved in her
4 of 12

J\

/-\ /^\ .

J. A —

r

r

defense, Mr. Camareno testified that she was “involved in the sense that she knew what [his] theory
was early on and then [she] would try to help supplement that.” See Hrg. T. p. 49, attached.
Mr. Camareno testified if Dr. Northrup or Dr. Gamache “had said she’s not competent,
then [he] immediately would have brought that to the Court’s attention and then the Judge would
have had a hearing on it.” See Hrg. T. p. 53, attached. Mr. Camareno testified he never had
questions about Defendant’s competency and explained that his “only question ... was what was
going on in [Defendant’s] mind at the time of the incident ... not during the time [they] were
interacting.” See Hrg. T. p. 54, attached. Mr. Camareno agreed both Dr. Northrup and* Dr.
Gamache found Defendant competent to proceed and found there was not a sufficient basis for her
to rely on the insanity defense at trial. See Hrg. T. pp. 55-70, attached. Mr. Camareno testified that
in addition to Dr. Northrup and Dr. Gamache, he also consulted with Dr. Maher, Dr. McLeod, and
Dr. Eldra Solomon regarding Defendant’s case. See Hrg. T. p. 70, attached.
• Mr. Camareno testified he "didn’t see any indication that [Defendant] was under the
influence of any drugs, alcohol, or medication” nor did she appear incompetent when he discussed
the plea offer from the State with her. See Hrg. T. p. 81, attached. Mr. Camareno reiterated that
Defendant was “depressed, without a doubt, but competent.” See Hrg. T. p. 82, attached. Mr.
Camareno testified he “would never tell any client, and [he] didn’t tell [Defendant], don’t take this
plea because... it’s a decision that [they are] going to have to live with for the rest of [their lives].”
See Hrg. T. p. 84, attached.
On re-direct examination, Mr. Camareno testified he summarized Dr. Northrup’s and Dr.
Gamache’s reports for Defendant by explaining, “look, there’s no insanity, there’s no
incompetency, in terms of what their findings were and, unfortunately, there’s not battered spouse
syndrome defense.” See Hrg. T. p. 85, attached.

5 of 12

,/L._

i

r

r

Defendant was called to testify next. Defendant testified Mr. Camareno originally told her
the State’s offer was thirty years’ prison, but then she found out in court that it was thirty-five. See
Hrg. T. pp. 99-100, attached. Defendant testified Mr. Camareno told her “that if [she took] the
plea, [she would] not [be] able to fight [her] case any more and that [she would] have to do the
time.” See Hrg. T. p. 100, attached. Defendant testified Mr. Camareno also told her that if she went
to trial and lost, she could “come back and fight [her] case and get less time.” Id. Defendant
testified this played a “very big part” in her decision not to accept the plea agreement and reiterated
that Mr. Camareno told her should would get “less time by fighting [her] case if [she lost at] trial.”
See Hrg. T. p. 101, attached.
Defendant testified leading up to trial, she was taking Prozac every day. See Hrg. T. p. 102,
attached. Defendant testified that if Mr. Camareno had told her about the State’s plea offer “the
same way that he discussed it... [at the hearing],” she “would have accepted it, definitely.” Id.
Defendant testified Mr. Camareno spent “no more than an hour” discussing the State’s offer with
her. See Hrg. T. p. 103, attached. When asked whether she felt that Mr. Camareno did “everything
reasonably possible to tell [her] what would happen if [she] accepted the plea offer,” Defendant
answered no and testified she believed “he could have explained it into more depths [sic] so [she]
could really understand the depths of what [she] was facing.” See Hrg. T. pp. 104-05, attached.
On cross-examination, Defendant initially testified she did not know she was facing a life
sentence prior to trial. See Hrg. T. p. 107, attached. Defendant testified she never asked Mr.
Camareno for a five-year offer, but agreed that thirty-five years is “a long time.” See Hrg. T. p.
108, attached. Defendant then testified that she did know she would receive a life sentence if she
was convicted as charged, but reiterated that she “was under the impression ... that [she] could
come back and fight [her] case and get less time.” See Hrg. T. pp. 109-10, attached. Defendant

6 of 12
l

L

Ol/^/

r

r

testified that while Mr. Camareno “never told [ha-] to reject [the offer]... he advised [ha] that if
[she went] to trial, [she] would get less time.” See Hrg. T. p. 118, attached.
Claim One
In claim one, Defendant alleges that counsel rendered ineffective assistance by allowing
ha to reject a favorable plea offer when counsel knew Defendant suffered from sevae mental
illness. See Amended Grounds One of Motion for Post Conviction Relief. Defendant states that
she “rejected a favorable plea offer of thirty (30) years in Florida State prison with ten (10) years
probation” and was ultimately sentenced to “natural life with a twenty-five (25) year mandatory
minimum in prison .without the possibility of parole.” Id.
Defendant “asserts that counsel failed to correctly inform ha of the maximum penalty that
she faced” and “advised [her] to reject the plea offer because if she proceeded to trial she would
receive a lessa sentence because of her mental illness.” Id. Defendant states that she “lacked the
capacity to rationally weigh the risk of going to trial versus acceptance of the plea.” Id. Defendant
contends that if counsel had “properly advised [her,] she would have accepted the plea offer of
thirty (30) years offered by the State” and that because of counsel’s deficient performance, she
“was denied the opportunity to accept a lesser sentence.” Id.
. Defendant cites to. Alcorn v. State, 121 So. 3d 419 (Fla. 2013), and argues that she has met
all of the elements ofAlcorn because she “would have accepted the plea; the State would not.have
withdrawn the plea as it would have been accepted unda its terms; the Court would have accepted
the offer because it was fair and reasonable; and the sentence unda the terms of the offer would
have been less sevae than the natural life and twenty-five (25) mandatory minimum,sentence
imposed following trial.” Id.
Afta reviewing the motion, the testimony and evidence presented at toe evidentiary
hearing, the court file, and toe record, the Court finds Defendant is not entitled to relief. Initially,
7 of 12

A

.i..,

r

r

the Court finds that when an ineffective assistance claim is based on rejection of a plea offer, “to
establish prejudice, the defendant must allege and prove a reasonable probability, defined as a
probability sufficient to undermine confidence in the outcome, that (1) he or she would have
accepted the offer had counsel advised the defendant correctly, (2) the prosecutor would not have
withdrawn the offer, (3) the court would have accepted the offer, and (4) the conviction or
sentence, or both, under the offer's terms would have been less severe than under the judgment and
sentence that in fact were imposed.” Alcorn v. State, 121 So. 3d at 430. Here, the Court finds that
Defendant has failed to meet her burden.
Specifically, the Court finds Defendant has failed to demonstrate deficient performance by
Mr. Camareno. In making this determination, the Court finds credible Mr. Camareno’s testimony
. that he “made [it] clear to [Defendant] that if [they] proceeded to trial and she lost, no matter how
much mitigation [he] offered ... it was a mandatory life sentence.” The Court finds this is
supported by State’s Exhibit 1, the report prepared by Dr. Northrup, in which Defendant
acknowledged that a “life sentence [was] her worst case scenario.” See State’s Exhibit 1.
Further, the Court finds credible Mr. Camareno’s testimony that he was not concerned
about Defendant’s competency during the course of his representation. Specifically, the Court
finds credible Mr. Camareno’s testimony that he was able to communicate with Defendant and
that he never had concerns that she did not understand what was going on. This is supported hy
the Court’s determination within claim two that Defendant was competent at the time of her trial.
The Court also finds credible Mr. Camareno’s testimony regarding Defendant being
“unhappy” with the State’s offer because it would prevent her from seeing her children for a
lengthy period of time due to her incarceration. This is supported by Defendant’s agreement at the
evidentiary hearing that thirty-five years is “a long time” and her testimony that after receiving the
life sentence, she would now be willing to accept the State’s thirty-five year offer.
8 of 12
l .

I ..

r

r

Additionally, the Court notes that it finds credible Mr. Camareno’s testimony that he
discussed the appellate process with Defendant, which included an explanation that if she accepted
a plea, she would not be able to further litigate her case. However, the Court did not find credible
Defendant’s testimony regarding Mr. Camareno telling her that if she went to trial and lost, she
would receive less time after “fighting her case.”
Accordingly, the Court finds Defendant failed to show that Mr. Camareno did not provide
competent evidence when advising her regarding the possible outcomes if she went to trial and
was found guilty. As such, Mr. Camareno cannot be said to have performed below an objective
standard of reasonableness or that trial counsel’s performance was unreasonable under
professional norms. Therefore, no relief is warranted. Accordingly, the Court denies claim one
of Defendant’s “Amended Grounds One of Motion for Post Conviction Relief.”
Claim Two
In claim two, Defendant alleges that counsel was ineffective for failing to move the Court
to conduct a hearing to rule on the question of her competency. See Amended Grounds One, Two,
Three, Four and Five of Motion for Post Conviction Relief. Defendant argues that the record
“manifestly indicates that [counsel] questioned [her] competence to proceed” and that “her mental
illness impaired her ability to rationally understand the facts or the proceedings against her.” Id.
By incorporating facts included within claim one, Defendant alleges that she has “a lifelong history
of severe mental illness and is being treated by the Department of Corrections for Depressive
Disorder, Borderline Personality Disorder and Borderline Intellectual Functioning.” Id. Defendant
argues that counsel knew of her history of mental disorders as he received “medical reports.. .from
Dr. Patricia Phelps, PhD, and [through] interviews with [her] family.” Id. Defendant also notes
that counsel “twice requested appointment of experts to conduct forensic psychological
examinations” and that “they plainly reflected that [she] suffered from serious mental illness that
9 of 12

r

r

would likely affect her ability to make rational decisions to accept or reject a plea offer or proceed
to trial.” Id.
Defendant argues that were it not for her “mental incompetence, had she been of sound
mind, had she been capable of rational thinking, she would have accepted the favorable plea
offered by the State rather than face a mandatory life sentence.” Id. Defendant contends that
“[q]uite simply, [she] was not in her right mind and her attorney did nothing to establish her
incompetence to participate in pretrial or trial proceedings.” Id. Defendant “asserts that she was
not competent to proceed to trial, not competent to reject the State’s plea offer, and not competent
to waive her right to testify on her own behalf.” Id. Defendant argues that counsel’s “failure to
motion the court to determine her competency, particularly in light of his knowledge of the severity
of her mental illness demonstrates deficient performance.” Id.
After reviewing the motion, the testimony and evidence presented at the evidentiary
hearing, the court file, and the record, the Court finds Defendant is not entitled to relief.
Specifically, the Court finds that trial counsel did have Defendant evaluated for competency twice
and both evaluations were returned with a finding of competency. In. the first evaluation, which
was performed on April 14, 2010, Dr. Northrup noted that the “purpose of [the] evaluation [was]
to examine [Defendant’s] competency to stand trial and [her] mental state at the time of the offense
(sanity).” See State’s Exhibit 1. Dr. Northrup opined “within reasonable medical certainty [that]
the defendant [was] competent to stand trial” and found she “demonstrated an appreciation of the
charges against her and the nature of the possibility penalties.” Id. He further opined “within
reasonable medical certainty [that] the defendant [did] not meet criteria for legal insanity.” Id.
In the second evaluation, which was performed on August 17,2010, and August 26,2010,
Dr. Gamache found that “with regard to competency, [Defendant] remains depressed at the present
time and is no longer taking medication. However, her depression is presently not so severe that it
10 of 12

Jl -

1

r-

r

renders her unable to participate in legal proceedings or unable to assist [counsel] in preparing a
defense.” See State’s Exhibit 2. Consequently, Dr. Gamache did “notfind any psychological basis
to question [Defendant’s] current mental state and her competency to proceed.” Jd.
In addition to the findings made by the doctors, the Court finds credible the testimony of
Mr. Camareno. Specifically, the Court finds credible Mr. Camareno’s testimony that he hail no
concerns about Defendant’s competency to proceed with trial because he was able to effectively
communicate with her and she never appeared to not understand what they were dismissing
Consequently, the Court finds that the testimony and evidence that was presented demonstrates
that Defendant was able to consult with Mr. Camareno with a reasonable degree of rational
understanding and that she understood the pending proceedings. As such, Mr. Camareno cannot
be said to have performed below an objective standard of reasonableness or that trial counsel’s
performance was unreasonable under professional norms. Therefore, no relief is warranted.
Accordingly, the Court denies claim two of Defendant’s “Amended Grounds One, Two,
Three, Four and. Five of Motion for Post Conviction Relief.”
It is therefore ORDERED AND ADJUDGED that claim one of Defendant’s “Amended
Grounds One of Motion for Post Conviction Relief’ and claim two of her “Amended Grounds
One, Two, Three, Four and Five of Motion for Post Conviction Relief’ are hereby DENIED.
Defendant has thirty (30) days within which to appeal.
DONE AND ORDERED in Chambers in Hillsborough County, Florida, this | l_ day
of March, 2019.

j/U

%■

MARK KISER, Circuit Judge

11 of 12

h

n

r

Attachments:
Evidentiary Hearing Transcript

CERTIFICATE OF SERVICE
I hereby certify that a copy of this order has been furnished to Venecia Depaula, DC#:
155466, Homestead Correctional Institution, 19000 S. W. 377th Street, Florida City, Florida
33034-6409; and Julian Hayes, Esquire, P.O. Box 271682, Tampa, Florida 33688, by regular
U.S. Mail; and to Scott Harmon, Assistant State Attorney, 419 N. Pierce Street, Tampa, Florida
33602, by inter-office mail; on this

day of March ,2019.

L jJ, /thru
deputyccl

12 of 12

cAnvo'wl i d df

.1

DISTRICT COURT OF APPEAL
SECOND DISTRICT
Post Office Box 327

Lakeland, Florida 33802
(863)940-6060
ACKNOWLEDGMENT OF NEW CASE
DATE:

March 28, 2019

STYLE:

VENECIA DEPAULA

2DCA#:

2D19-1216

v. STATE OF FLORIDA

The Second District Court of Appeal has received the Appeal reflecting a filing date of March 22, 2019.
The county of origin is Hillsborough.
The lower tribunal case number provided is 09-CF-13368.
The filing fee is: No Fee-3.850.
Case Type: Criminal 3.850 Final Non-Summary
The Second District Court of Appeal’s case number must be utilized on all pleadings and correspondence
filed in this cause. Moreover, ALL PLEADINGS SIGNED BY AN ATTORNEY MUST INCLUDE
THE ATTORNEY'S FLORIDA BAR NUMBER.
Please review and comply with any handouts enclosed with this acknowledgment.

cc:

Attorney General, Tampa

Venecia Depaula

Pat Frank, Clerk

/'✓J/t/ [/

